No:
IN THE
SUPREME COURT OF THE UNITED STATES

BOBBY MARTIN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that on this 20th day of September, 2021, in accordance with SUP. CT.
R. 29, copies of the (1) Petition for Writ of Certiorari, (2) Motion for Leave to Proceed
In Forma Pauperis, (3) Certificate of Service, and (4) Declaration Verifying Timely
Filing was deposited with a third party commercial carrier for delivery to the Court
within three calendar days. A copy of the same was served via e-mail upon the
Solicitor General of the United States, at SupremeCtBriefs@usdoj.gov.
MICHAEL CARUSO
Federal Public Defender
Miami, Florida
September 20, 2021

By:

s/Tracy Dreispul
Tracy Dreispul
Assistant Federal Public Defender
Deputy Chief, Appellate Division
150 West Flagler Street, Suite 1500
Miami, Florida 33130-1555
(305) 536-6900

